-r

CERTIFICATE OF COMPLIANCE WITH WORD LIMIT, TYPE-VOLUME
LIMIT, TYPEFACE REQUIREMENTS AND TYPE-STYLE
REQUIREMENTS
I.

Brenda A. Patterson, Hereby Certify that Petitioner’s Petition for
Writ of Habeas Corpus complies with the word limits for documents
presented in a 6 1/8-9 1/4-inch booklet under Rule 33.1(a), because
the above-referenced document contains 4,368 words, not counting
the exclusions specified in Rule 33.1(d).

II.

I Hereby Certify, this document complies with the typeface
requirements of Fed. R. App. P. 32(a)(5) and the type-style
requirements of Fed. R. App. P. 32(a)(6).

III.

I Hereby Certify, this document has been prepared in a
proportionally typeface using Century Font with 12 point type and
2-point spacing

Pursuant to 28 U. S. C. §1746,1, Brenda A. Patterson, declare under penalty
of perjury that the foregoing is true and correct.
Executed on September 16, 2019

Brenda A. Patterson

RECEDE0

noV '8 MB

Additional material
from this filing is
available in the
Clerk's Office.

